APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM/VISA SECURED/VISA PLATINUM
REWARDS
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

2.99%

Introductory APR for a period of six billing cycles

After that, your APR will be
creditworthiness.

.

10.99% to 20.99% , based on your

Visa Secured

2.99%

Introductory APR for a period of six billing cycles

After that, your APR will be

7.00%

.

.

Visa Platinum Rewards

2.99%

Introductory APR for a period of six billing cycles

.

20.49% , based on your
After that, your APR will be 11.49%
creditworthiness. This APR will vary with the market based on the Prime
Rate.

to

APR for Balance Transfers

Visa Platinum
2.99% Introductory APR for a period of six billing cycles

.

After that, your APR will be 10.99% to 20.99% , based on your
creditworthiness.
Visa Secured
2.99% Introductory APR for a period of six billing cycles

.

After that, your APR will be 7.00% .
Visa Platinum Rewards
2.99% Introductory APR for a period of six billing cycles

.

After that, your APR will be 11.49% to 20.49% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00903275-MXC10-C-3-061520 (MXC101-E)

APR for Cash Advances

Visa Platinum
2.99% Introductory APR for a period of six billing cycles

.

After that, your APR will be 10.99% to 20.99% , based on your
creditworthiness.
Visa Secured
2.99% Introductory APR for a period of six billing cycles

.

After that, your APR will be 7.00% .
Visa Platinum Rewards
2.99% Introductory APR for a period of six billing cycles

.

After that, your APR will be 11.49% to 20.49% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- International Service Assessment Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

None
None
None
1.00% of each multiple currency transaction in U.S. dollars
0.80% of each single currency transaction in U.S. dollars
Up to $38.00
Up to $35.00
Up to $35.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR:
The Introductory APR for purchases, balance transfers and cash advances will apply to transactions posted to your
account during the first six billing cycles following the opening of your account. Any existing balances on Community
Credit Union of Florida loan or credit card accounts are not eligible for the Introductory APR for balance transfers.
Effective Date:
The information about the costs of the card described in this application is accurate as of: December 31, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Platinum, Visa Secured and Visa Platinum Rewards are secured credit cards.
Credit extended under this credit card account is secured by various personal property and money including, but
not limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral
for this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the
Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit
Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods
when you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00903275-MXC10-C-3-061520 (MXC101-E)

with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$27.00 or the amount of the required minimum payment, whichever is less, if you are more than 10 days late in making a
payment. In the event you fail to make a payment on time in any of the six billing cycles following the initial violation, you
will be charged $38.00 or the amount of the required minimum payment, whichever is less.
Over-the-Credit Limit Fee:
$25.00 or the amount of the transaction exceeding your approved credit limit, whichever is less. In the event you exceed
your credit limit in any of the six billing cycles following the initial violation, you will be charged $35.00 or the amount of the
transaction exceeding your approved credit limit, whichever is less.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less. In the event a payment is returned in the same
or in any of the six billing cycles following the initial violation, you will be charged $35.00 or the amount of the required
minimum payment, whichever is less.
Card Replacement Fee:
$5.00.
Document Copy Fee:
$5.00.
Emergency Card Replacement Fee:
$25.00.
Rush Fee:
$25.00.
Statement Copy Fee:
$5.00.
Skip A Payment Fee:
$15.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00903275-MXC10-C-3-061520 (MXC101-E)

